Audit of Field Support Mechanisms in the
Global Health Bureau

Audit Report Number 9-000-05-001-P
December 7, 2004




                   Washington, D.C.
(This page intentionally left blank.)
December 7, 2004


MEMORANDUM
TO:            AA/M, John Marshall
               Acting AA/PPC, Barbara N. Turner
               M/IRM, John Streufert

FROM:          AIG/A, Bruce N. Crandlemire /s/

SUBJECT:       Audit of Field Support Mechanisms in the Global Health Bureau
               (Report No. 9-000-05-001-P)

This memorandum transmits our final report on the subject audit. In finalizing the report,
we considered your comments on our draft report and have included your responses as
Appendix II.

This report includes three recommendations to 1) coordinate the review, selection, and
funding of an information systems solution to facilitate the commitment of and reporting on
field support funds, 2) designate the owner of the selected information systems solution and
3) complete the planning, design, and implementation of the selected information systems
solution. In your written comments, you concurred with those recommendations.
Consequently, we consider that management decisions have been reached and that final
action is pending on all three recommendations. Information related to your final action on
these recommendations should be provided to USAID’s Office of Management Planning
and Innovation.

I want to express my sincere appreciation for the cooperation and courtesies extended to
my staff during the audit.
(This page intentionally left blank.)
           Summary of Results.................................................................................... 5
Table of
Contents   Background ................................................................................................. 5

           Audit Objective........................................................................................... 7

           Audit Findings ............................................................................................ 7

                   Can USAID improve its ability to commit and obligate funds
                   under its field support agreements?

           Evaluation of Management Comments..................................................... 15

           Appendix I - Scope and Methodology ...................................................... 17

           Appendix II - Management Comments..................................................... 19

           Appendix III - Flowchart of the Current Field Support Process............... 23




                                                                                                                            3
(This page intentionally left blank.)




                                        4
Summary of   USAID missions obtain a significant amount of their required technical services
Results      through USAID’s field support mechanism. In fact, in FY 2003 alone, the Global
             Health Bureau (GH) received 1,100 separate field support requests, involving
             services totaling $428 million. Unfortunately, USAID’s current method for
             processing field support is burdensome and has imposed a heavy workload on the
             regional and pillar bureaus, particularly the GH Bureau which (1) maintains the
             field support database which contains all of USAID’s field support requests and
             (2) processes (i.e., bundling for obligation) the bulk of the Agency’s field support
             contracts and agreements (over 80 percent in FY 2003). (See “Background”
             section below.)

             At the request of the Global Health Bureau, the Office of Inspector General
             conducted this audit to determine whether USAID can improve its ability to
             commit and obligate funds under its field support agreements. (See page 7).

             The audit concluded that improvements could be made to significantly streamline
             the process for committing and obligating funds relating to field support
             agreements. (See page 7.) These improvements were identified in a recently
             completed study performed by USAID’s Office of Information Resources
             Management (IRM), which proposed a solution involving the linkage of data
             contained in USAID’s field support database to its primary accounting system
             (Phoenix). (See page 12.) The solution, which allows already gathered data
             contained in the field support database to be electronically transmitted into
             Phoenix to generate commitments, could reduce data input and result in a
             significantly less labor-intensive process, fewer errors, and reduced risk of
             unobligated field support funding remaining at year’s end. (See page 12.)

             We recommended that the Assistant Administrator for Management—in
             coordination with the Assistant Administrator for Policy and Program
             Coordination—coordinate the review, selection and funding of an information
             systems solution to facilitate the commitment of and reporting on field support
             funds.     We also recommended that the Assistant Administrator for
             Management—in coordination with the Assistant Administrator for Policy and
             Program Coordination—designate the owner of the selected information systems
             solution. Finally, we recommended that the Director of the Office of Information
             Resources Management plan, design and implement the selected information
             systems solution. (See page 15.)          Management concurred with our
             recommendations. (See page 15.)


Background   USAID missions can access centrally awarded contracts, cooperative agreements,
             and grants through several mechanisms. The most commonly used mechanism is
             “field support,” through which missions buy in to agreements that are centrally
             managed by the pillar bureaus. Under this procurement process, missions initially
             identify their annual requirements and submit their requests for needed services or
             commodities via the Field Support Database System, an auxiliary on-line database


                                                                                               5
created by the Global Health Bureau for tracking the use of field support to ensure
compliance with earmarks, directives, etc. Other pillar bureaus use this database
as well to gather field support requests from their clients in the field. As these
requests are received and approved by the regional bureaus, funding is transferred
from the missions’ budgets to the bureaus, where they are recorded in USAID’s
accounting system (Phoenix), posted initially as commitments, and later
“bundled” by the pillar bureaus and obligated under specific agreements.

This field support process is a great convenience to overseas missions since it
relieves them from the burden of having to procure and administer these contracts
directly. During the five-year period from fiscal years (FYs) 1999 through 2003,
the GH Bureau processed some 4,600 GH-related field support requests with a
total value of $1.76 billion, averaging over $350 million per year. In FY 2003
alone, the GH Bureau received 1,100 separate field support requests, involving
services totaling $428 million, from 58 overseas missions, 5 regional offices, and
17 Washington D.C.-based operating units. These requests resulted in the
procurement of services under 66 existing GH-managed contracts, cooperative
agreements, and grants, representing 81 percent of the Agency’s total field
support.

Unfortunately, USAID’s current method for processing field support is
burdensome and has imposed a heavy workload on the regional and pillar
bureaus, particularly the GH Bureau which has responsibility for (1) maintaining
the field support database which contains all of USAID’s field support requests
and (2) processing (i.e., bundling for obligation) the bulk of the Agency’s field
support agreements (over 80 percent in FY 2003).

Further, as USAID prepares for the deployment of the Phoenix Accounting
System to its overseas missions over the next two years, there are serious
concerns that the central workload, particularly in the case of the GH Bureau, will
dramatically increase in volume and complexity. This is because the current
practice of “consolidating” (i.e., combining buy-ins by agreements) requests by
regional bureaus, which significantly reduces the number of procurement actions
to be processed, may be discontinued as a result of the planned deployment—
causing the number of procurement actions to double. Such a dramatic increase
in the number of transactions would make it difficult, if not impossible, for the
GH Bureau to continue to process and track its field support requests without a
change to the Phoenix system or additional resources. In light of these concerns,
the GH Bureau requested that an audit be performed to look into this matter and
identify possible solutions.




                                                                                 6
Audit       This audit was conducted at the request of the Global Health Bureau to answer the
Objective   following question:

                  •   Can USAID improve its ability to commit and obligate funds under its
                      field support agreements?

            Appendix I contains a discussion of the audit's scope and methodology.


Audit       USAID can improve its ability to commit and obligate funds under its field
Findings    support agreements by linking its data in the field support database to the Phoenix
            Accounting System.

            Because it is labor intensive and requires duplication of effort, the current process
            for committing and obligating funding under centrally managed field support
            agreements is burdensome to all participants. Moreover, with USAID’s imminent
            deployment of the Phoenix Accounting System to overseas missions, there are
            serious concerns that the pillar bureaus’ workload will dramatically increase in
            volume and complexity. Based on a recent study, USAID’s Office of Information
            Resources Management (IRM) has developed a preliminary proposal to automate
            the field support process by linking the data in the field support database to
            USAID’s Phoenix Accounting System. Based on our review of IRM’s solution,
            we believe that this procedural change will not only reduce the current burden
            associated with processing field support requests but will also enhance existing
            internal controls, helping to ensure that no committed funds remain unobligated at
            fiscal year end.

            Description of the Current Process - Missions use the field support database to
            request needed services or commodities from centrally managed agreements.
            The regional bureaus input these requests as commitments into USAID’s Phoenix
            Accounting System, after which they are “bundled” by the Global Health (GH)
            Bureau and obligated under specific agreements.

            The GH Bureau created the field support database to monitor the planned requests
            from overseas missions for services already procured from contractors and
            grantees providing health-related services to USAID. The size of these field
            support agreements generally range from $10,000 to $10 million, with most
            falling between $100,000 and $1 million. Missions1 that anticipate transferring
            funds to the centrally managed field support agreements first enter their annual
            requirements into a web-based field support database. Other pillar bureaus share
            this same database and use it to gather field support requests from their clients in
            the field. The database also contains historical data, allowing missions and
            bureaus to view their own field support requests back to the beginning of FY
            1999. This historical information is useful for reporting to USAID’s stakeholders.
            1
                 Some Washington-based offices also request field support through the database (although these
                represent only around 3 percent of the total).


                                                                                                             7
Each year, missions that elect to use field support have a one-month window to
enter their requests directly into the field support database. After this period, a
field support baseline of requests is established, and the field support database no
longer accepts direct entries by missions. This year, the GH Bureau established
the baseline as of April 1, 2004. Subsequent changes to the baseline must be
coordinated closely with the GH Bureau and the respective regional bureau
program office. According to a GH bureau official, without this discipline the
current system could not function. This process allows time for regional bureaus
to distribute funds to the missions and to consolidate,2 commit, and bundle for
obligation the mission requests by agreement so that the workload of USAID’s
Office of Acquisition and Assistance (OAA) is reduced.

After requests have been input into the database, regional bureaus compare each
mission’s field support requests for compliance with its budget, directives, and
earmarks. If correct—and if no further changes are requested by the mission—the
bureaus manually enter this data from the field support database into Phoenix to
commit the funds. Once the commitments are posted to Phoenix, the bureaus
notify the GH Bureau by e-mail, showing the details of the transactions. The GH
Bureau compares the commitment data in Phoenix with the field support database
to ensure that no errors have been made.


        Current Process for Committing Field Support Funds

                                                                     Advises that
             Overseas                                                               Global Health
                                                    Regional Bureau commitment is
              Mission                                                                  Bureau
                                                                       posted



                                 Requests reviewed
                                  and approved by    Manually posts
         Manually posts data
                                the regional bureaus commitment to
           relating to field
                               to ensure compliance    Phoenix              Manually compares commitment
          support request
                               with budget, earmarks                           data in Phoenix against
                                   and directives                              data in field support data
                                                                                base to verify accuracy

                                                       Phoenix
                                                      Accounting
            Field Support                              System
              Database




                                                     Field Support
                                                       Database


2
  The regional bureaus consolidate the missions’ buy-ins to field support agreements during the
commitment phase by grouping the missions’ requests, sorted by agreement. The GH Bureau does
a further consolidation by bundling the commitments for obligation.




                                                                                                            8
Once this reconciliation is complete, the GH Bureau must look for all field
support commitments in the Phoenix Accounting System pertaining to a particular
agreement so they can be attached to an Acquisition and Assistance (A&A)
request for obligation. The process of bundling these numerous commitments
into a few A&A requests greatly reduces the workload of the OAA.3 The A&A
requests are forwarded to OAA, which then generates an obligation that is posted
to Phoenix. The GH Bureau manually updates this obligation data in its field
support database by entering information gleaned primarily from incremental
funding actions sent to the contractor or recipient.

         Current Process for Obligating Field Support Funds
                            Identifies all
                           commitments
                             under each
                          agreement and                                                  Office of
          Global Health                              A&A Request      Sent to OAA
            1              then attaches                                                Acquisition
             Bureau                                                   for obligation
                          commitments to                                                Assistance
                          an A&A request
                           for obligation
                                             OAA electronically
                                              posts obligation
                                               into Phoenix



                                                      Global Health Bureau manually
                                    Global Health     posts obligation data from OAA
            Phoenix
                                       Bureau                funding actions into      Field Support
           Accounting
                                                         its field support database      Database
            System




Problems associated with the current process - USAID officials—like all U.S.
Government officials—are responsible for making efficient and effective use of
the resources with which they have been entrusted. However, during our review
of field support, we found that the current process used to commit and obligate
funds to centrally managed agreements is labor intensive and burdensome to all
involved. The process is labor intensive—in part—because there is no sharing of
data between the field support database and Phoenix and because most overseas
missions do not yet have access to Phoenix. As a result:

    •   Because most overseas missions cannot access Phoenix, the same
        commitment data must be entered manually into both the field support
        database and USAID’s Phoenix Accounting System (each regional bureau
        must enter the commitment data for its overseas missions).

    •   GH Bureau staff must manually update the field support database to
        reflect the obligation of funds in Phoenix.

Moreover, even though the field support requests are bundled and committed by
the regional bureaus, the process of identifying and attaching the commitments to

3
 For example, in FY2003 the GH Bureau received 1,100 separate field support requests from
missions, offices, and bureaus. By bundling these requests, the GH Bureau reduced the number of
A&A requests from 1,100 to 350—a reduction of over 68 percent.
                                                                                                       9
a procurement action for obligation has also created a significant workload for the
GH Bureau. Since each field support request must maintain its distinct identity, a
separate line item is created in the field support database; that line item is
eventually tracked back to the mission and its strategic objective. Identifying and
sorting these line items has been a time-consuming task for the GH Bureau, which
must manually reconcile the field support database with the individual
commitments in Phoenix in order to ensure that no errors have been made before
the commitments are attached to an A&A request and forwarded to the Office of
Acquisition and Assistance (OAA) for obligation. To do otherwise would risk
leaving funds unobligated at year end and, in certain cases, the permanent loss of
funding if the funds involved are expiring appropriations.

As described above, the current field support process is burdensome and labor
intensive. Consequently, it unduly consumes scarce USAID staff resources that
might otherwise be used in managing and implementing USAID programs and
operations. Many of these issues may be addressed by the solution proposed by
IRM, described later in this report.

Further complicating the field support process is the fact that missions make
changes to their requests after the field support baseline has been established.
After a certain date,4 the missions cannot directly access the field support
database to modify their requests. However, missions do submit changes and late
requests via e-mail to the appropriate contact person in each of the pillar bureau
offices. Any changes or additions to field support requests are then made by GH
staff in the field support database, which the missions can view at anytime. GH
estimates that up to a third of all field support requests are modified after the
baseline is established and prior to commitment and obligation.

The problems associated with the current field support process are supported by
the findings contained in a December 2002 report issued by Touchstone
Consulting Group, which reported the following:

•          The regional bureaus spend an enormous amount of time reconciling
           between the Phoenix Accounting System, their spreadsheets, and the field
           support database.

•          All participants (regional and pillar bureaus, and the Office of Acquisition
           and Assistance) have a tremendous amount of workload and pressure at
           the end of the fiscal year trying to ensure that the field support services
           desired are within the mission budget and are obligated in a timely
           manner.

The GH Bureau reported similar conditions in its FY 2003 Federal Managers’
Financial Integrity Act (FMFIA) report and cited these conditions as a material
weakness. The weakness was identified as a lack of effective systems to manage
field support transfers. Specifically, the GH Bureau’s FMFIA report stated, “the

4
    This year the baseline was established as April 1, 2004.
                                                                                    10
present field support system is badly broken. Current processes are excessively
labor-intensive and it is, therefore, increasingly difficult to meet mission needs.”
The report also stated that the present field support system may preclude GH and
OAA’s ability to fully obligate field support funding. Further, once the Phoenix
Accounting System is operating in the field, more disorder may be introduced into
this system.

Potential problems associated with the Phoenix rollout - As USAID prepares
for the deployment of the Phoenix Accounting System to its missions over the
next two years, there are serious concerns that the central workload, particularly
for the GH Bureau, will dramatically increase in volume and complexity. This is
because the current practice of consolidating requests by regional bureaus, which
combines requests and significantly reduces the number of commitments
processed, could be eliminated because missions will process their own
commitments—causing the number of procurement actions bundled by the GH
Bureau and other pillar bureaus to potentially double. Such a dramatic increase in
the number of transactions would make it difficult, if not impossible, for the GH
Bureau to continue to process and track its field support requests without a change
to the Phoenix system or additional resources.

We reviewed the GH Bureau’s analysis that was done to determine the increase in
the number of commitments that would occur once missions had access to
Phoenix and processed their own commitments. Since the regional bureaus would
no longer be bundling these commitment transactions, the burden of bundling the
increased transactions for obligation would fall primarily to the three pillar
bureaus that manage field support agreements. We agree with the GH Bureau’s
conclusion that, most likely, the number of transactions would significantly
increase and possibly double the workload needed to attach the commitments to
A&A requests for obligation.

Therefore, with a potentially large increase in the number of commitments, it
becomes more important to track the commitments so as to prevent significant
unobligated funds remaining at the end of the fiscal year. In FY 2002, the GH
Bureau identified $4.1 million of commitments that had not been obligated at
year’s end. In FY 2003, there were three separate requests totaling $1.7 million
that went unobligated. USAID risks the permanent loss of such funds if they are
not obligated in a timely manner. A potential doubling of commitments after the
rollout of the Phoenix Accounting System requires an efficient method to ensure
that all funds reserved for field support requests are (1) entered into the field
support database and (2) subsequently committed and obligated in Phoenix by
year’s end.

Information Resources Management’s solution - In September 2003, the Office
of Information Resources Management (IRM) accepted the challenge to take the
lead in coordinating a working group with the purpose of solving the field support
system challenges and addressing the material weakness reported in GH Bureau’s
Federal Managers’ Financial Integrity Act Report for Fiscal Year 2003. Their


                                                                                 11
approach to field support was a significant part of a larger effort to develop an
integrated Management/Executive Information System.

Based on a detailed study of the field support process, IRM developed a plan to
automate the field support process by linking the data in the field support database
to USAID’s Phoenix Accounting System. This linkage would produce two
important improvements over the current process: (1) the data for commitments
would be electronically moved from the field support database to the Phoenix
Accounting System, thus preventing the regional bureaus from having to
manually re-enter the same data twice and (2) the manual reconciliation of
Phoenix commitments to the field support database could potentially be
eliminated. This electronic process would reduce data input and result in a
significantly less labor-intensive process, with fewer errors and a reduced risk of
unobligated field support funding remaining at year’s end.

    Proposed Process for Committing Field Support (FS) Funds
                                                                          Requests can be reviewed
                                                                           simultaneously in the FS
                          Manually posts data                             database by mission and
          Overseas
                            relating to field                            regional bureaus to ensure
           Mission                                Field Support                                        Phoenix Acctg
                           support request                                 compliance with budget,
                                                 (FS) Database                                           System
                                                                           earmarks, then posted
                                                                           electronically to Phoenix



Another proposed IRM improvement, as depicted below, envisions a field support
database that is accessible to all its users and that provides real-time information
which is updated as transactions are posted. The field support database will be
updated directly from Phoenix once obligations are posted from OAA’s
procurement information system. This could make it easier for the pillar bureaus
to identify unobligated commitments.

          Proposed Process for Obligating FS Commitments
                    and Posting to FS Database

                                 Identifies from FS
                                                                                                         Office of
                             database all commitments
         Global Health                                         A&A Request           Sent to OAA        Acquisition
                             posted to each agreement
            Bureau                                                                   for obligation       (OAA)
                              and then attaches to an
                                                                                                        Assistance
                             A&A request for obligation

                                                             OAA electronically
                                                              posts obligation
                                                               into Phoenix


                                                       Phoenix
                                                 electronically posts
                         Phoenix Acctg             obligation to field             Field Support
                            System                support database                (FS) Database




                                                                                                                      12
Instituting IRM’s proposal should make it easier5 for the GH Bureau to use the
field support database in identifying commitments ready for attachment to an
A&A request for obligation. The ability to search or sort the field support
database for commitments lacking an obligation amount should make it easier for
the GH Bureau to identify unobligated commitments and to attach those
commitments to an A&A request for obligation.

Consequences of inaction – There are many potential consequences of inaction
on the part of USAID. Some of these include:

    •   Unobligated Funds - According to officials from the Global Health
        Bureau, the present field support system relies on a stand-alone database
        to plan, manage, and keep track of approximately 1,400 separate fiscal
        year (FY) 2004 actions totaling over $550 million from some 63 overseas
        operating units. This database is not linked in any way to the Phoenix
        Accounting System or to the A&A System. The planning and budgeting
        processes for these funds would remain unchanged, but moving the funds
        into Phoenix and A&A may become unmanageable and—according to
        Global Bureau officials—will likely result in up to 20% ($110 million) of
        the planned field support funds remaining unobligated at the end of the
        fiscal year (FY) 2005.

    •   Support for HIV/AIDS - In FY 2004, an estimated 48% of the field
        support funds were classified as HIV funds ($264 of $550 million) and are
        an integral part of a highly visible, Presidential Emergency Plan for AIDS
        Relief. Following the roll out of Phoenix to the missions, the current field
        support system may no longer be able to successfully support this
        initiative.

    •   The Quality of Data May Suffer – In FY 2004, the $550 million of field
        support funds were committed in Phoenix in some 700 separate
        transactions, which were manually entered into Phoenix by about 10
        persons in Regional and Pillar Bureaus. After the Phoenix roll-out to the
        missions, some 65 to 120 persons in some 63 overseas operating units will
        generate an estimated 1,100 separate transactions in Phoenix that will still
        need to be entered into the Field Support database. Current naming
        conventions in Phoenix and strict timing constraints that allow 10 persons
        to manage the funds at present will not be enforceable with the expanded
        number of persons around the world generating Phoenix commitments.
        Funds may be lost in Phoenix and not obligated by fiscal year end and


5
  Currently, a naming convention must be followed to make it easier to find field support
commitments in Phoenix for obligation. If the naming convention is not followed, through error
in data entry or other reasons, the pillar bureaus could miss a commitment. Under IRM’s
proposed plan, the pillar bureaus would use the field support database to identify commitments
ready for obligation.


                                                                                           13
         existing manual, quality, and verification controls for field support may
         become overwhelmed and cease to function effectively.

Summary - Based on our discussions with IRM staff and a review of their
proposal, we concluded that the proposed solution would not only reduce the
current burden in processing field support requests but would also enhance the
GH Bureau’s ability to ensure that no committed funds remain unobligated at fiscal
year end. The process of electronically linking the data from the field support
database into the commitment fields in Phoenix would eliminate the need to enter
this same data twice—a duplication of effort. It would also eliminate the need to
manually compare the commitment data in Phoenix with the field support
database to ensure that the data was entered correctly. Lastly, linking the
obligation back from Phoenix to the field support database would increase the GH
Bureau’s oversight of the obligating process since the GH Bureau (and the
missions as well) will be able to use the field support database at anytime to
identify commitments not yet obligated. This alone could greatly reduce the risk
of unobligated field support funding remaining at year’s end. Consequently, we
believe that USAID should move forward with IRM’s proposal.

However, to ensure the integrity of the resulting system, it is essential that the
Agency proceed in a manner consistent with applicable legislation and regulations,
such as the Federal Managers’ Financial Integrity Act, the Federal Information
Security Management Act, the Federal Financial Management Improvement Act and
the Clinger-Cohen Act. Moreover, since the issues involved in this effort—such as
the programming of field support, the development of an information system and its
interaction with Phoenix—impact many USAID bureaus and offices, we believe it is
important to have high-level coordination of this effort within USAID.

We believe that two key USAID bureaus should play important roles in facilitating
this coordination. First, the Bureau for Management should take the lead in the
process, since both the Office of Information Resources Management—which
would lead the development of the system—and the Office of Financial
Management—which has the responsibility for Phoenix—fall under the
Management Bureau. Second, the Bureau for Policy and Program Coordination
(PPC) should coordinate the participation of regional and pillar bureaus since PPC
already handles a number of cross-cutting issues for USAID such as developing
policies, strategies and the allocations of resources.

Finally, in addition to having coordination among the various parties, it is vital that
USAID identify which agency official will be the “owner” of the information
system. This is important because the owner of an information system is responsible
for the overall procurement, development, integration, modification, or operation
and maintenance of the information system.6


6
 The responsibilities of the information system owner are delineated in the Guide for the Security
Certification and Accreditation of Federal Information Systems (NIST SP 800-37).


                                                                                                14
                To address the above issues, we are making the following recommendations.

                       Recommendation No. 1:            We recommend that the Assistant
                       Administrator of the Bureau for Management—in coordination with
                       the Assistant Administrator for Policy and Program Coordination—
                       coordinate the review, selection, and funding of an information
                       systems solution to facilitate the commitment of and reporting on field
                       support funds with the deployment of Phoenix to overseas missions, in
                       a manner consistent with applicable legislation and regulations, such
                       as the Federal Managers’ Financial Integrity Act, the Federal
                       Information Security Management Act, the Federal Financial
                       Management Improvement Act and the Clinger-Cohen Act.

                       Recommendation No. 2:          We recommend that the Assistant
                       Administrator of the Bureau for Management—in coordination with
                       the Assistant Administrator for Program Policy and Coordination—
                       designate the owner of the selected information systems solution.

                       Recommendation No. 3: We recommend that the Director of the
                       Office of Information Resources Management complete the planning,
                       design, and implementation of the selected information systems
                       solution—in a manner consistent with applicable legislation and
                       regulations, such as the Federal Managers’ Financial Integrity Act, the
                       Federal Information Security Management Act, the Federal Financial
                       Management Improvement Act and the Clinger-Cohen Act—by early
                       calendar year 2006.




Evaluation of   In their response to our draft report, USAID management concurred with our
Management      recommendations and described the following actions planned to address our
                concerns.
Comments
                Recommendation No. 1 recommends that the Assistant Administrator of the
                Bureau for Management—in coordination with the Assistant Administrator for
                Policy and Program Coordination—coordinate the review, selection, and funding
                of an information systems solution to facilitate the commitment of and reporting
                on field support funds. USAID management agreed with this recommendation
                and indicated that USAID was currently working on an information systems
                solution. Accordingly a management decision has been reached on the
                recommendation.

                Recommendation No. 2 recommends that the Assistant Administrator of the
                Bureau for Management—in coordination with the Assistant Administrator for
                Program Policy and Coordination—designate the owner of the selected


                                                                                             15
information systems solution. USAID management concurred with the spirit of
this recommendation and suggested some report language based on what they
believed we meant by the term “system owner”. To clarify our use of this term,
we modified the report to include the definition of “system owner” used in the
Guide for the Security Certification and Accreditation of Federal Information
Systems issued by the U.S. National Institute for Standards and Technology.
Based on management’s concurrence with the spirit of this recommendation, we
conclude that a management decision has been reached.

Recommendation No. 3 recommends that the Director of the Office of
Information Resources Management complete the planning, design, and
implementation of the selected information systems solution by early calendar
year 2006. Management agreed with the recommendation and, accordingly, has
reached a management decision.




                                                                           16
                                                                                     Appendix I

Scope and     Scope
Methodology
              The Performance Audit Division of the Office of Inspector General conducted
              this audit in accordance with generally accepted government auditing standards.
              Fieldwork for this audit was performed at USAID’s offices in Washington, D.C.
              between January 20, 2004 and August 18, 2004.

              The purpose of this audit was to determine whether USAID could improve its
              ability to commit and obligate funds under its field support agreements. The audit
              scope focused on examining the procedures USAID used to allocate, commit, and
              obligate funds to GH’s centrally managed field support agreements, which totaled
              over $428 million in FY 2003. The scope also included reviewing the potential
              increases in workload and transactions once the Phoenix Accounting System was
              placed in overseas missions. However, since conversion to the Phoenix
              Accounting System was still in the initial phases at select accounting stations, we
              decided that visits to missions would not be appropriate.

              In conducting our audit, we assessed the effectiveness of Global Health’s internal
              controls with respect to field support activities. We identified internal controls
              such as:

              •   Maintenance of a field support database;

              •   Designation of a field support coordinator to monitor the field support
                  activities for Global Health and other pillar bureaus;

              •   Verification of field support requests from the field support database to
                  commitments in the Phoenix Accounting System; and

              •   Bundling of commitments by agreement for subsequent obligation by the
                  Office of Acquisition and Assistance.

              Methodology

              The audit work focused on USAID’s ability to commit and obligate funds under
              field support mechanisms in a timely manner based on concerns regarding the
              potential problems that may occur as a result of the planned roll-out of the
              Phoenix Accounting System. In planning and performing the audit, we obtained
              an understanding of rules, regulations, USAID procedures, and management
              controls related to the allocation of field support funds, request and modification
              procedures for field support, the commitment and obligation process, and the
              operation of the field support database.




                                                                                              17
In performing the audit, we examined pertinent documentation, such as (1) the
field support assessment performed by Touchstone Consulting Group, Inc.,
Global Health’s Federal Managers’ Financial Integrity Report for FY 2003, and
(3) USAID’s financial management procedures. In addition, we observed and
gained an understanding of the operation of the Agency’s field support system,
which consisted of a primary accounting system and an auxiliary field support
database; appropriation and allocation process; request and modification
procedures; and commitment and obligation method. To identify improvements
to the field support process, we interviewed responsible officials in USAID’s
Global Health Bureau, Regional Bureaus, Pillar Bureaus, Office of Acquisition
and Assistance, Office of Financial Management, Office of Information
Resources Management, United States Department of Health and Human
Services, AMS Consulting, and SRA International, Inc.7

Our audit also included several meetings designed to develop consensus on the
best course of action for improving USAID’s ability to commit and obligate funds
under its field support agreements. In developing our recommendations, we
discussed our proposals with staff within the Global Health Bureau, Office of
Information Resources Management, AMS Consulting, and SRA International,
Inc., to solicit feedback and ensure that proposed actions were appropriate and
feasible.

A materiality threshold was not established for this audit since it was not
considered to be applicable given the qualitative nature of the audit objective,
which focused on procedural modifications that would enable USAID to improve
its ability to commit and obligate funds under its field support agreements.




7
    Both AMS Consulting and SRA International, Inc. are Phoenix implementers.




                                                                                18
                                                                                    Appendix II


Management
Comments                                                       November 22, 2004


             MEMORANDUM

             TO:            AIG/A, Bruce Crandlemire

             FROM:          AA/M, John Marshall /s/
                            DAA/PPC, Barbara Turner /s/

             SUBJECT:       Bureau for Management Comments of Draft Report on the Audit
                            of Field Support Mechanisms in the Global Health Bureau
                            (Report No. 9-000-05-00X-P)

             Thank you for your memorandum of 1 October 2004 which transmitted your
             draft audit report of Field Support. We are grateful for the efforts of your staff in
             conducting this performance audit which was requested by the Bureau for Global
             Health.

             USAID concurs with the spirit of all the findings in this audit report and
             proposes a few clarifications.

             The field support system is vital to our efforts to provide field access to central
             contracts to support a number of development efforts, especially HIV/AIDS
             programs. Global Health Bureau has done vital work in establishing procedures
             to manage field support. We also agree with Global Health managers that as this
             program grows and as Phoenix rolls out to the field, our business practices will
             need to be modified in specific ways that will allow the Agency to take
             advantage of emerging technologies. Thus, we are especially grateful for your
             recommendations on how best to incorporate technological improvements. At
             the same time, we will continue to examine business practice and technological
             improvements under the aegis of the BTEC.

             Following are our management decisions and corrective actions regarding the
             proposed audit recommendations.

             Recommendation No. 1: We recommend that the Assistant Administrator of
             the Bureau for Management—in coordination with the Assistant Administrator
             for Policy and Program Coordination—coordinate the review, selection and
             funding of an information technology solution to facilitate the commitment of
             and reporting on field support funds with the deployment of Phoenix to overseas
             missions, in a manner consistent with applicable legislation and regulations, such


                                                                                               19
as the Federal Managers’ Financial Integrity Act, the Federal Information
Security Management Act, the Federal Financial Management Improvement Act
and the Clinger-Cohen Act.

We accept the spirit of this recommendation.

We note that the phrase “information technology solution” used in all three
recommendations seems to imply that the problems identified can be solved by
technology alone. We note that an effective solution will require coordinated
changes to policy, operational procedures, and organizational workflows, which
can be supported and enhanced by technology. But these changes cannot be
achieved by technology alone. Generally the term “information systems
solution” is used to refer to this synergistic mix of information technology and
business practice. We recommend that all three recommendations be changed to
replace “information technology solution” with “information systems solution.”
In any case, we will assume, herein, that your recommendations meant to refer to
such a solution using technical innovation to enhance business processes.

Proposed Recommendation No. 1:          We recommend that the Assistant
Administrator of the Bureau for Management—in coordination with the Assistant
Administrator for Policy and Program Coordination—coordinate the review,
selection and funding of an information systems solution to facilitate the
commitment of and reporting on field support funds with the deployment of
Phoenix to overseas missions, in a manner consistent with applicable legislation
and regulations, such as the Federal Managers’ Financial Integrity Act, the
Federal Information Security Management Act, the Federal Financial
Management Improvement Act and the Clinger-Cohen Act.

We agree with this recommendation. We are currently working on an
information systems solution, which was proposed to our BTEC committee in
the Spring of 2004. Design work has proceeded over the summer, and is in the
process of being finalized now. Initial funding has been limited and has come
largely from the budgets of Global Health and IRM, by reducing efforts in other
areas. PPC will give high priority to identifying additional funds for this solution
early in FY05.

Recommendation No. 2: We recommend that the Assistant Administrator of
the Bureau for Management—in coordination with the Assistant Administrator
for Policy and Program Coordination—designate the owner of the selected
information technology solution.

We accept the spirit of this recommendation and are working within the BTEC
framework to designate the owner or senior executive to lead and coordinate this
task by January 2005.




                                                                                 20
We wish to clarify what we think you may mean by system owner. Instead of
assigning a system “owner,” we believe that an Agency information system
solution incorporating both technology and business process change should have
an Agency “executive sponsor.” PPC could play the role of “executive sponsor”
to obtain funding and coordinate policy and procedural changes. This executive
sponsorship role, however, does not mean that PPC has the ability to control the
other bureaus, missions, and offices that must collaborate to make this system
work. In addition, this role does not accept responsibility for implementing a
technical solution. Therefore, the executive sponsorship role that could be
played by PPC should be supported by the following additional high level roles
and responsibilities for a complete information systems solution to useful:

• GH staff (with experience in field support) will perform project functional
manager roles to guide the requirements of the solution.
• Bureaus, offices, and missions that use field support will participate in defining
and implementing improved procedures to make the field support process more
efficient.
• The CFO and CPO (and their staffs) will allow the integration of their systems
with the Field Support information system solution in a manner which meets the
goals of the Agency.
• The CIO and Director of IRM will assign a technical project manager and team
to implement the technical portions of the solution.

Without all of this support, PPC could not effectively perform its role of funding
and coordinating this effort. Nor could the Director of IRM implement a
solution.

Therefore, we suggest that the recommendation be issued as follows:

Proposed Recommendation No. 2:           We recommend that the Assistant
Administrator of the Bureau for Management—in coordination with the Assistant
Administrator for Policy and Program Coordination—designate the owner of the
selected information system solution and the other key roles necessary to
successfully implement a solution. By system owner (a.k.a. executive sponsor)
we mean the coordination of funding, as well as policy and procedural changes,
across those who use, support, or implement the field support solution.

We agree with this recommendation and have a plan in place to complete this
task by January 2005.

Recommendation No. 3: We recommend that the Director of the Office of
Information Resources Management complete the planning, design and
implementation of the selected information technology solution—in a manner
consistent with applicable legislation and regulations, such as the Federal
Managers’ Financial Integrity Act, the Federal Information Security




                                                                                  21
Management Act, the Federal Financial Management Improvement Act and the
Clinger-Cohen Act—by early fiscal year 2005.

We agree with the spirit of this recommendation.

The Director of the Office of Information Resources Management, working with
PPC, Global Health, CFO, CPO and other appropriate organizational units, and
with their support, will complete the planning, design and implementation of the
technical portion of the proposed solution.

PPC, coordinating the other players described above, will define business
requirements for the technical solution, and implement the policy and procedural
changes necessary to make the improvements needed overall.

We anticipate that with adequate funding the field support improvements will be
in place by early CY 2006

We therefore recommend that the recommendation be reworded, as follows:

Proposed Recommendation No. 3: We recommend that the Director of the
Office of Information Resources Management complete the planning, design and
implementation of the technology portion of the selected system solution—in a
manner consistent with applicable legislation and regulations, such as the
Federal Managers’ Financial Integrity Act, the Federal Information Security
Management Act, the Federal Financial Management Improvement Act and the
Clinger-Cohen Act—by early
calendar year 2006.

We agree with this recommendation.




                                                                              22
Flowchart of the Current Field Support Process
                                                  Appendix III




                         Allocation of Funds to
                         Bureaus and Missions




                                  Start



                            Office of Financial
                              Management
                                 Records
                            Appropriation of
                            Funds in Phoenix



                            Bureau for Policy
                              and Program
                              Coordination
                             Allots Funds to
                                Bureaus



                            Bureaus Establish
                             Allowances in
                            Order to Allocate
                              Funds to the
                                Missions




                                 Page 24




                                                           23
                              Coordination & Validation of Field
                                     Support Requests




    From Page 23                                             Missions Enter Field
                                                            Support Requests into
                                                             Database With Each
                                                             Request Identified by
                                                            SO, Fund, Fund Type,
                                                               and Agreement
 Regional Bureaus
 Notify Missions of
 Earmarks & Limits
on Funding Available                                             Field Support Requests
                                                             Inputted into On-Line Database
  for Bilateral and
    Field Support




                                                                   Field Support
                                                                     Data Base
  Notified Via E-mail Based
  on Specified Fund Limits


                                                               Regional Bureaus
                                                             Review Field Support
                                                            Requests Entered into
                                                               the Database and
                                                            Bilateral Funding Plans
                                                             for Compliance With
                                                             Earmarks and Other
     Missions
                                                                     Limits
Coordinate Bilateral
 and Field Support
Funds with Regional
     Bureaus                                                        To Page 25




                                                                                              24
Commitment of Funds in Phoenix



          From Page 24



     Regional Bureaus
   Approve Field Support
   Requests and Post the
   Commitment in Phoenix




      Regional Bureaus
     E-mail Details of the
    Commitments to Global
           Health


  E-mail Specifies Commitment Document
      Number, Country, Account, SO,
        Directive, and Project Name




  Global Health Validates that
   the Commitment Amount
   Per Phoenix Matches the
   Amount Requested by the
  Mission as Reflected in the
    Field Support Database




            Global Health
             Records the
         Commitment in the
         Field Support Data
                Base




            To Page 26




                                         25
   Obligation of Funds in the
Acquisition & Assistance System



        From Page 25




   Global Health Funds Field
      Support Requests by
  Attaching the Commitments,
     which are Bundled by
  Agreement, and Sending the
   Obligation Requests to the
    Office of Acquisition and
        Assistance (OAA)



        OAA Posts the
     Obligation into the
        Acquisition &
    Assistance System and
     Phoenix Accounting
           System




    Global Health Manually
     Posts the Obligation
    into the Field Support
      Database from the
     Phoenix Accounting
           System




             End




                                  26
